No.______________________
IN THE SUPREME COURT OF THE UNITED STATES
TYRIUS GREEN
Petitioner
v.
ATTORNEY GENERAL, STATE OF NEW JERSEY AND
STEPHEN M. D’ILIO, ADMINISTRATOR, NEW JERSEY
STATE PRISON
Respondents
ON PETITION FOR A WRIT OF CERIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The Petitioner, Tyrius Green, respectfully requests leave to file the attached
Petition for a Writ of Certiorari without prepayment of cost and to proceed in forma
pauperis pursuant to United States Supreme Court Rules 12.2 and 39.
Petitioner was granted leave to proceed in forma pauperis in the proceedings
before the United States Court of Appeals for the Third Circuit pursuant to 28 U.S.C.
§ 3006A. The undersigned was appointed to represented Petitioner by the Third
Circuit. The Order of Appointment is attached hereto.

Wherefore, it is respectfully requested that this Court grant the Petitioner’s
request to proceed in forma pauperis and that the Court accept the attached Petition
for a Writ of Certiorari.
Date: July 30, 2021

Respectfully submitted,
/s/ George W. Keefer
Counsel for Petitioner
GEORGE W. KEEFER, ESQ.
930 Park Avenue, Apt 4
Hoboken, NJ 07030
201-787-8684

Case: 19-3325

Document: 14

Page: 1

Date Filed: 04/23/2020

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
No. 19-3325
Tyrius Green v. Attorney General New Jersey, et al
(U.S. District Court No. 3-15-cv-01886)
ORDER REGARDING APPOINTMENT OF COUNSEL
George W. Keefer, Esq. is hereby appointed to represent Tyrius Green on appeal.
The appointment will be created in the Court’s eVoucher program. Counsel is directed
to the eVoucher page for information regarding the appointment terms and
procedures.
CJA 20, 30, 21 and 31 vouchers are submitted for payment through the Court’s
eVoucher program. Upon receiving separate email notification of this appointment
from the Court’s CJA staff, counsel may create CJA 20, 30, 21 and 31 vouchers for
use in maintaining time and expense records and paying for expert services.
Counsel is required to electronically file an appearance form, criminal information
statement in direct criminal appeals or civil information statement for habeas appeals,
and transcript purchase order form within fourteen (14) days of the date of this
order. The transcript purchase order form must be completed and filed even if
transcripts are not required. Failure to electronically file any of these forms by the due
date will result in the issuance of an order to Show Cause without further notice.
Authorization for preparation of transcripts must be obtained in the District
Court. Deadlines for ordering and filing the transcripts will be set by this Court.
Counsel is required to file the transcript purchase order in this Court and should
indicate in Part 1B of the form that the "CJA form submitted to District Court Judge".
The Clerk’s Office will notify the District Court CJA personnel that counsel has been
appointed. Counsel should contact the District Court regarding the creation of the
appointment in that Court's eVoucher system. Counsel must then complete the
transcript request by filing an "Auth-24" request in the District Court’s eVoucher
program. Financial arrangements for the transcripts will not be considered complete
until counsel has submitted an "Auth-24" request through the District Court’s
eVoucher program.

Case: 19-3325

Document: 14

For the Court,
s/ Patricia A. Dodszuweit
Clerk
Dated: April 23, 2020
kr/cc: Tyrius Green
George W. Keefer, Esq.
Mercer County Prosecutors Office

Page: 2

Date Filed: 04/23/2020

